No. 20-1246
IN THE

Supreme Court of the United States
ANNA VALENTINE, WARDEN,
Petitioner,
v.
JOHNNY R. PHILLIPS,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

CERTIFICATE OF SERVICE
I, Alan E. Schoenfeld, a member of the bar of this Court, hereby certify that, on
this 28th day of May, 2021, all parties required to be served have been served copies of
the Brief in Opposition in this matter by overnight courier to the address below.
DANIEL CAMERON
Attorney General of Kentucky
S. CHAD MEREDITH
Solicitor General
JEFFREY CROSS
Deputy Solicitor General
COURTNEY J. HIGHTOWER
Assistant Attorney General
KENTUCKY OFFICE OF THE ATTORNEY GENERAL
CRIMINAL APPEALS UNIT
1024 Capital Center Drive
Frankfort, KY 40601-8204
(502) 696-5513
courtney.hightower@ky.gov
ALAN E. SCHOENFELD
WILMER CUTLER PICKERING
HALE AND DORR LLP
7 World Trade Center
250 World Trade Center
New York, NY 10007
(212) 230-8800
alan.schoenfeld@wilmerhale.com

